 

IN THE

Supreme Court of the United States

Harris County Hosprrau District,

Petitioner,
Vv.

PUBLIC UTILITY COMMISSION OF TEXAS AND
SOUTHWESTERN BELL TELEPHONE COMPANY D/B/A
AT&T TExas,

Respondents.

On Petition for a Writ of Certiorari to the Court
of Appeals of Texas, Third District

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,947 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 8, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
